21-317
IN THE

ORIGINAL

Supreme Court of t\}t ®mtet> !§>tate£
FILED

DEAN A. KOCH
---- -------- Petitioner;
v.

AUG
I SUPRFMF

2021

mSt

STATE OF OHIO, Department of Natural Resources, Division of Wr
JAMES ZEHRINGER, Director, Department of Natural Resources, Sued in
both his individual and official capacities; SCOTT ZODY, Chief,
Department of Natural Resources, Division of Wildlife, Sued in both his
individual and official capacities; RANDALL J. MEYER, Inspector General,
Sued in both his individual and official capacities; GINO BARNA, OHIO
WILDLIFE OFFICER, ERIE COUNTY, OHIO, Sued in his individual and
official capacities; BRIAN BURY, OHIO WILDLIFE OFFICER, ERIE
COUNTY, OHIO, Sued in his individual and official capacities; GARY
MANLEY, OHIO WILDLIFE OFFICER, ERIE COUNTY, OHIO, Sued in his
individual and official capacities
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

DEAN A. KOCH
204 Norwood Avenue
Sandusky, Ohio 44870
419-366-2042
Dkoch49@aol.com
Pro Se Petitioner

QUESTIONS PRESENTED
1. Does the Decision of the Sixth Circuit herein violate the canons of statutory
construction especially those enunciated in Bostock v. Clayton County, No. 17—
1618. Argued October 8, 2019—Decided June 15, 2020,

U.S.

2. Does the Eleventh Amendment to the U. S. Constitution prohibit suits against
state entities and individuals or does it merely limit the remedies for such
actions?
3. Is qualified immunity constitutional?
4. Does the judicially-created doctrine of qualified immunity run contrary to
statute and the intent of the legislature under the Civil Rights Act of 1871 (The
Ku Klux Klan Act), 42 U.S.C. §1983 and the XII, XIV and XV Amendments to
the U.S. Constitution?

1

STATEMENT OF RELATED PROCEEDINGS
Dean Koch v. State of Ohio, et al. 3:18-cv-2287 (N.D. Ohio); Dean Koch v. State of
Ohio et al., 20-3334 (6th Cir.).

11

TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED

1

STATEMENT OF RELATED PROCEEDINGS

11

TABLE OF AUTHORITIES

v

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

2

SUMMARY OF ARGUMENT

3

ARGUMENT

4

A. The Eleventh Amendment

4

1. Conflict with in Bostock v. Clayton County, No. 17-1618. Argued October
8, 2019—Decided June 15, 2020 and the Canons of Statutory
Interpretation........................................................................ ........................ .

4
4

a. The Canon of Donut Holes
2. Limitation of Relief

8

11

b. Qualified Immunity

13

CONCLUSION

m

APPENDIX
Order in the United States Court of Appeals for the Sixth Circuit
(June 2, 2021).......................................................................................

App. 1

Memorandum Opinion and Order in the United States District Court for the Northern
District of Ohio Western Division
(March 9, 2020)
App. 16
Complaint in the United States District Court for the Northern District of Ohio
(October 2, 2018)
App. 34

IV

TABLE OF AUTHORITIES
PAGE

GASES::-------—
Barnhart v. Sigmon Coal Co.
534 U.S. 438 (2002)........

7

Bickerstaff v. Lucarelli,
830 F.3d 388 (6th Cir. 2016)

12

Bostock v. Clayton County,........ ......
----- ---------------No. 17-1618. Argued October 8, 2019-Decided June 15, 2020,
Carcieri v. Salazar,
555 U. S. 379 (2009)

U.S.

passim

6

Chisholm v. Georgia,
2 Dali. 419 (1793)

4,5

Connecticut Nat. Bank v. Germain,
503 U. S. 249 (1992)..................

6

Edelman v. Jordan,
415 U.S. 651 (1974)

9, 10

Ex Parte Young,
" 209 U. S. 123 (1908)

4, 8, 9, 10

INS v. Chadha,
462 U.S. 919, 103 S.Ct. 2764, 77 L.Ed.2d 317 (1983)

8

In Re Ayers,
123 U.S. 507, 31 L. ed. 230, 8 Sup. Ct. Rep. 164 (1887)

9

Monaco v. Mississippi,
292 U.S. 313 (1934)

5

Monroe v. Pape,
365 U.S. 167 (1961)

11

New Prime, Inc. v. Oliveira,
139 S. Ct. 532 (2019)....

8

Pennhurst State Sch. & Hosp. v. Halderman,
465 U.S. 89, 104 S. Ct. 900, 79 L. Ed. 2d 67 (1984)

v

4, 5, 10

Perrin v. United States,
444 U.S. 37, 100 S.Ct. 311, 62 L.Ed.2d 199 (1979)

7

Pierson v. Ray,
386 U. S. 541 (1967)

12

Rubin v. United States,
449 U. S. 424 (1981)

6

United States v. Ron Pair Enterprises, Inc.,
489 U. S. 235 (1989)..................................

7

United States v. Wiltberger,
18 U.S. 35 (1820) 5 Wheat. 35

8

Wisconsin Central Ltd. v. United States,
585 U.S.___, 138 S.Ct. 2067, 201 L.Ed.2d 490 (2018)

7

CONSTITUTIONS:
2

U.S. Const, amend. Ill
U.S. Const, amend. XIII

i, 3, 12

U.S. Const, amend. XIV

i, 3, 12

U.S. Const, amend. XV

i, 3, 12

STATUTES:
11 U.S.C. §362

1

11 U.S.C. §1201

1

15 U.S.C. §1692

1

28 U.S.C. §1331

1

28 U.S.C. §1341(3)

1

28 U.S.C. §1341(4)

1

28 U.S.C. §1343

1

vi

28 U.S.C. §2201

1

28 U.S.C. §2202

1

42 U.S.C. §1983

i. 1

42 U.S.C. §1985

1

42 U.S.C. §1988

1

"Civil Rights Act of 1871 (The Ku Klux Klan Act)

i, 2, 12

RULES:
1

Fed. R. Civ. P. 57
Articles:
The Appeal^ “Qualified Immunity Explained”. Amir H. Ali and Emily Clark

2, 11

r

Vll

OPINIONS BELOW
The opinions below are the ones cited from the Sixth Circuit and the Opinion
of the Northern District:
Dean Koch u. State of Ohio et al., 20-3334 (6th Cir.). Which is included as
Appendix A (App. 1). Dean Koch v. State of Ohio, et al. 3:18-cv-2287 (N.D. Ohio).
Which is included as Appendix B (App. 16).
STATEMENT OF JURISDICTION
This matter is in response to the Sixth Circuit Court of Appeals Decision and
Opinion filed June 2, 2021. This Decision and Opinion is in conflict with this Court’s
holding in Bostock v. Clayton County, No. 17—1618. Argued October 8, 2019—Decided
June 15, 2Q20,

U.S. This action was brought pursuant to 42 U.S.C. §§1983, 1985

and 1988 and the First and Fourteenth Amendments to the United States
Constitution, 11 U.S.C. §§362 and 1201 and, 15 U.S.C. §1692. Jurisdiction is founded
on 28 U.S.C. §§1331 and 1341(3) and (4) and 1343 and the aforementioned
constitutional and statutory provisions. The declaratory and injunctive relief sought
is authorized by 28 U.S.C. §§ 2201 and 2202, 42 U.S.C. §1983 and Rule 57 Federal
Rules of Civil Procedure. Additionally, the Plaintiffs invoked this Court’s
supplemental jurisdiction, pursuant to 28 U.S.C.§1367(a), of state causes of action
included herein since they are involved in the facts, law and issues of this matter.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Regarding both assertions of immunity, there is no “canon of donut holes”
within the canons of statutory construction. Bostock v. Clayton County, No. 17-1618.
Argued October 8, 2019—Decided June 15, 2020,
Concerning the Eleventh Amendment, Article III, 2, of the Constitution
provides that the federal judicial power extends, inter alia, to controversies "between
a State and Citizens of another State."
Concerning qualified immunity, in the Civil Rights Act of 1871 (also known as
the Ku Klux Klan Act), Public Law 42-22, Congress gave Americans the right to sue
public officials who violate their legal rights. In Section 1983 of the U.S. Code (the
modern analogue of the 1871 Civil Rights Act), Congress said that if a public official
violates your rights—whether via police brutality, an illegal search, or an unlawful
arrest—you can file a lawsuit to hold that public official financially accountable for
his conduct. The language Congress used was unequivocal: “Every” state official who
causes a “deprivation of any rights” guaranteed by the Constitution and laws “shall
be liable to the party injured.” The Appeal; “Qualified Immunity Explained”. Amir H.
Ali and Emily Clark, infra.
STATEMENT OF THE CASE
Petitioner filed a Complaint in the U. S. District Court Northern District of
Ohio on October 2, 2018 (R.l, Complaint PAGEID# 1-15). Motions to Dismiss for
Failure to State a Claim were filed on November 20, 2018 (R.10, Motion to Dismiss
PAGEID# 48-143) and December 10, 2018 (R.16, Motion to Dismiss, PAGEID# 173-

2

209). Responses in Opposition to Motions to Dismiss were filed on December 4. 2018
(R.14, Opposition PAGEID# 151-162) and December 20, 2018 (R.18, Opposition
PAGEID# 216-235). Replies to Responses in Opposition to Motion to Dismiss were
filed on December 17, 2018 (R.17, Reply, PAGEID# 212-215) and December 31, 2018,
(R.19, Reply PAGEID# 236-241). An Order on Motions to Dismiss was filed on March
9, 2020, dismissing the case, (R. 23, Memorandum Opinion and Order PAGEID# 250267). Notice of Appeal was filed on March 20, 2020 (R.25, Notice of Appeal, PAGEID#
269-270). The Sixth Circuit Court of Appeals affirmed the decision of the U. S. District
Court for the Northern District of Ohio on June 2, 2021.
SUMMARY OF ARGUMENT
The Respondents have engaged in a decades- long campaign of retaliation
against the Petitioner for the exercise of his First Amendment right to free speech.
Not only have they participated in these actions but were on explicit notice thereof.
The Eleventh Amendment does not prohibit suits against these entities and
individuals, but merely prohibits certain remedies. Qualified immunity is not
applicable to such state actors and, in fact, is a judicially- created doctrine having no
statutory basis and is contrary to the XIII, XIV and XV Amendments to the United
States Constitution and the Civil Rights Act of 1871.

3

ARGUMENT
A. The Eleventh Amendment
1. Conflict with in Bostock v. Clayton County, No. 17-1618. Argued October 8
2019—Decided June 15, 2020 and the Canons of Statutory Interpretation.
a. The Canon of Donut Holes
The Sixth Circuit accepted the Respondents’ claim that the Eleventh
Amendment prohibits states from being sued by their own citizens. Of course, the
Eleventh Amendment itself says no such thing. This expansion of the Eleventh
Amendment is a judicial creation. This fiction is necessarily limited by its conflict the
Fourteenth Amendment as enunciated in Ex Parte Young, 209 U. S. 123 (1908).and
recognized and acknowledged in Penhurst State Sch. & Hosp. v. Halderman, 465 U.S.
89 (1984). This approach, rejected in Bostock, is precisely the approach taken by the
Supreme Court in expanding the unambiguous language of the Eleventh
Amendment.
As recounted in Penhurst, supra;
A
Article III, 2, of the Constitution provides that the federal judicial power
extends, inter alia, to controversies "between a State and Citizens of
another State." Relying on this language, this Court in 1793 assumed
original jurisdiction over a suit brought by a citizen of South Carolina
against the State of Georgia. Chisholm v. Georgia, 2 Dali. 419 (1793).
The decision "created such a shock of surprise that the Eleventh
Amendment was at once proposed and adopted." Monaco v. Mississippi,
292 U.S. 313, 325 (1934). The Amendment provides:
"The Judicial power of the United States shall not be construed to extend
to any suit in law or equity, commenced or prosecuted against one of the
United States by Citizens of another State, or by Citizens or Subjects of
any Foreign State."

4

The Amendment's language overruled the particular result in Chisholm,
recognized that its greater significance lies in its
affirmation that the fundamental principle of sovereign immunity limits
the grant of judicial authority in Art. III. Thus, in Hans v. Louisiana,
134 U.S. 1 (1890), the Court held that, despite the limited terms of the
Eleventh Amendment, a federal court could not entertain a suit brought
by a citizen against his own State. After reviewing the constitutional
debates concerning the scope of Art. Ill, the Court determined that
federal jurisdiction over suits against unconsenting States "was not
contemplated by the Constitution when establishing the judicial power
of the United States." Id., at 15. See Monaco v. Mississippi, supra, at
322-323.
Penhurst, 465 U.S. at 98 — 99.
The decision of this Court in the judicially created fiction of Hans, supra, that
the Eleventh Amendment says more than it actually says in plain English is precisely
the technique recently rejected by this Court in Bostock v. Clayton County, No. 17—
1618. Argued October 8, 2019—Decided June 15, 2020, which states in part:
Syllabus,
(2) The employers contend that few in 1964 would have expected Title
VII to apply to discrimination against homosexual and transgender
persons. But legislative history has no bearing here, where no ambiguity
exists about how Title VII’s terms apply to the facts. See Milner v.
Department of Navy, 562 U. S. 562, 574. While it is possible that a
statutory term that means one thing today or in one context might have
meant something else at the time of its adoption or might mean
something different in another context, the employers do not seek to use
historical sources to illustrate that the meaning of any of Title VIPs
language has changed since 1964 or that the statute’s terms
ordinarily carried some missed message. Instead, they seem to say
when a new application is both unexpected and important, even if it is
clearly commanded by existing law, the Court should merely point out
the question, refer the subject back to Congress, and decline to enforce
the law’s plain terms in the meantime. This Court has long rejected that
sort of reasoning. And the employers’ new framing may only add new
problems and leave the Court with more than a little law to overturn.
Finally, the employers turn to naked policy appeals, suggesting that the
Court proceed without the law’s guidance to do what it thinks best. That

5

is an invitation that no court should ever take up. Pp. 23—33. No. 17—
1618, 723 Fed. Appx. 964, reversed and remanded; No. 17-1623, 883 F.
3d 100, and No. 18-107, 884 F. 3d 560, affirmed.
(Emphasis added).
And further:
“Nor is there any such thing as a “canon of donut holes...”
This Court has explained many times over many years that, when the
meaning of the statute’s terms is plain, our job is at an end. The people
are entitled to rely on the law as written, without fearing that courts
might disregard its plain terms based on some extratextual
consideration. See, e.g., Carcieri v. Salazar, 555 U. S. 379, 387 (2009);
Connecticut Nat. Bank v. Germain, 503 U. S. 249, 253-254 (1992);
Rubin v. United States, 449 U. S. 424, 430 (1981).
The employers, however, advocate nothing like that here. They do not
seek to use historical sources to illustrate that the meaning of any of
Title VII’s language has changed since 1964 or that the statute’s terms,
whether viewed individually or as a whole, ordinarily carried some
message we have missed. To the contrary, as we have seen, the
employers agree with our understanding of all the statutory language—
“discriminate against any individual. . . because of such individual’s . . .
sex.” Nor do the competing dissents' offer an alternative account about
what these terms mean either when viewed individually or in the
aggregate. Rather than suggesting that the statutory language bears
some other meaning, the employers and dissents merely suggest that,
because few in 1964 expected today’s result, we should not dare to admit
that it follows ineluctably from the statutory text. When a new
application emerges that is both unexpected and important, they would
seemingly have us merely point out the question, refer the subject back
to Congress, and decline to enforce the plain terms of the law in the
meantime. That is exactly the sort of reasoning this Court has long
rejected.
This is not a case involving Title VII, but Bostock does demonstrate what not
to do when interpreting plain language. Concerning the unauthorized expansion of
the Eleventh Amendment, as stated in Bostock.

6

The employers, however, advocate nothing like that here. They do not
rseek J,o_use-histoi-ieal~sourGes-to-iiiustrate-that"the~ meaning~of any of
Title VII’s language has changed since 1964 or that the statute’s terms,
whether viewed individually or as a whole, ordinarily carried some
message we have missed. To the contrary, as we have seen, the
employers agree with our understanding of all the statutory language—
“discriminate against any individual. . . because of such individual’s . .
. sex.” Nor do the competing dissents offer an alternative account about
what these terms mean either when viewed individually or in the
aggregate. Rather than suggesting that the statutory language bears
some other meaning, the employers and dissents merely suggest that,
because few in 1964 expected today’s result, we should not dare to admit
that it follows ineluctably from the statutory text. When a new
application emerges that is both unexpected and important, they would
seemingly have us merely point out the question, refer the subject back
to Congress, and decline to enforce the plain terms of the law in the
meantime. That is exactly the sort of reasoning this Court has long
rejected.
There was no ambiguity in the Amendment’s language. There was no change
to the Amendment. Instead, the Court in 1890, nearly one hundred years after the
promulgation of the Eleventh Amendment, unilaterally added to the United States
Constitution - a power that it does not possess and, an approach that has most
recently been rejected by the Supreme Court in Bostock.
The reasoning in Bostock is not a novelty.
Where, as here, the statutory language is unambiguous, the inquiry
ceases. See, e. g., United States v. Ron Pair Enterprises, Inc., 489 U. S.
235, 240.
Barnhart u. Sigmon Coal Co., 534 U.S. 438, Syllabus.
(a) "[I]t's a 'fundamental canon of statutory construction' that words
generally should be 'interpreted as taking their ordinary ... meaning
... at the time Congress enacted the statute.'" Wisconsin Central Ltd.
138 S.Ct. 2067, 2074, 201 L.Ed.2d
v. United States, 585 U.S.
490 (quoting Perrin v. United States, 444 U.S. 37, 42, 100 S.Ct. 311,
62 L.Ed.2d 199). After all, if judges could freely invest old statutory
terms with new meanings, this Court would risk amending

7

legislation outside the "single, finely wrought and exhaustively
considered, procedure" the Constitution commands. INS v. Chadha,
462 U.S. 919, 951, 103 S.Ct. 2764, 77 L.Ed.2d 317.
New Prime, Inc. v. Oliveira, 139 S. Ct. 532 (2019), Syllabus.
The intention of the legislature is to be collected from the words they
employ. Where there is no ambiguity in the words, there is no room for
construction. The case must be a strong one, indeed, which would justify
a court in departing from the plain meaning of words, especially, in a
penal act, in search of an intention which the words themselves did not
suggest.
United States v. Wiltberger, 18 U.S. 35 (1820), 5 Wheat. 35 at 44.
The judiciary since the founding of the Republic has had a tendency to
legislate. This is nowhere more evident than in its creation of immunities where none
exist. These immunities are manifestly un-American and against the spirit of the law.
On this basis, Petitioner would argue that all of the positions taken by the
Respondents are in error and the Eleventh Amendment in its plain language does
not defeat Petitioner’s claims in toto.
2. Limitation of Relief
The District Court’s position is that the Eleventh Amendment to the United
States Constitution prohibits any suit by a citizen against a state official for monetary
damages

from

the

state

treasury.

However,

a

state

official

who

acts

unconstitutionally can be sued because he cannot be held to be performing these acts
on behalf of the state, even if the official complies with the state's own laws.
Nonetheless, he can still be held to be a state actor. See, Ex Parte Young, 209 U. S.
123 (1908). Additionally, under Young,

8

The answer to all this is thesameasmade_in_everx_case_where^n_
........... . (jffrcial-dairris^xFbe-acting-undcr the'authority of the state. The act to he
enforced is alleged to be unconstitutional; and if it be so, the use of the
name of the state to enforce an unconstitutional act to the injury of
complainants is a proceeding without the authority of, and one which
does not affect, the state in its sovereign or governmental capacity. It is
simply an illegal act upon the part of a state official in attempting, by
the use of the name of the state, to enforce a legislative enactment which
is void because unconstitutional. If the act which the state attorney
general seeks to enforce be a violation of the Federal Constitution, the
officer, in proceeding under such enactment, comes into conflict with
the superior authority of that Constitution, and he is in that case
stripped of his official or representative character and is subjected in his
person to the consequences of his individual conduct. The state has no
power to impart to him any immunity from responsibility to the supreme
authority of the United States. See Re Ayers, 123 U.S. 507, 31 L. ed. 230,
8 Sup. Ct. Rep. 164.
Id. at 159-160.
Young dealt with the enforcement of an unconstitutional state law but the
principle remains the same. A state officer who acts in violation of the United States
Constitution, is not acting as a representative of the state (although, and importantly,
Young also held that for purposes of a federal lawsuit he was a state actor) but is
acting as an individual. The Respondents are asserted in the pleadings to have
violated the Petitioner’s First Amendment right to free speech, his Fourteenth
Amendment right to Due Process and, to have furthered a conspiracy to do so. At the
very least, under Young, all of these Respondents are subject to injunctive and
declaratory relief as requested in the Complaint. But they (other than the Respondent
State of Ohio) are also in their individual capacity subject to monetary damages.
The immunities of the Eleventh Amendment are,
In Edelman, the Court clarified the dividing line between permissible
relief and relief proscribed by the Eleventh Amendment, distinguishing

9

between prospective and retroactive relief. In summary, the Eleventh
Amendment bars the award of retroactive relief for violations of federal
law which would require the payment of funds from a state
treasury.Id., at 663, 94 S. Ct. at 1355-56. "The federal court may award
an injunction that governs the official's future conduct, but not one that
awards retroactive monetary relief." Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89, 102-03, 104 S. Ct. 900, 909-10, 79 L. Ed. 2d 67
(1984). The immunity is triggered when relief amounts to the payment
of state funds as a form of compensation for past breaches of legal duties
by state officials. Edelman, 415 U.S. at 668, 94 S. Ct. at 1358.

t.

In the present matter, as concerns the individual named Respondents, there
has been no showing that their actions in their individual capacities, capacities they
are assigned not only in the Complaint, but also under Young, supra, requires a
payment of funds of any sort from the State Treasury. To claim that it does is
unsupported and, is purely speculative at the pleading stage of the proceedings. It
would be appropriate, if at all, under a motion for summary judgment when exhibits

v

could be offered, but not at the pleadings stage. The individual Respondents are sued
in their individual capacities and, under Young, are, at this stage, acting as
individuals to whom the immunities of the Eleventh Amendment do not apply. The
•5-

District Court so found.
The Complaint asked that the individual. Respondents are subject to
injunctive and declaratory relief in both their official and individual capacities, and,
monetary relief in their individual capacities. The State of Ohio, while not subject to
monetary damages, is subject to the requested injunctive and declaratory relief
although such relief is prospective. The District Court found that prospective
injunctive relief remained available under the Eleventh Amendment. Accordingly,

10

the Complaint could not have been dismissed on this basis, at least not at the
pleading phase.
b. Qualified Immunity
The same principles involved in Bostock, supra concerning the fiction of
sovereign immunity apply to the even more egregious judicially legislated doctrine of
qualified immunity. The history of the development of this doctrine displayed in the
light of Bostock is as such,
In the Civil Rights Act of 1871 (also known as the Ku Klux Klan Act),
Congress gave Americans the right to sue public officials who violate
their legal rights. In Section 1983 of the U.S. Code (the modern analogue
of the 1871 Civil Rights Act), Congress said that if a public official
violates your rights—whether via police brutality, an illegal search, or
an unlawful arrest—you can file a lawsuit to hold that public official
financially accountable for his conduct. The language Congress used was
unequivocal: “Every” state official who causes a “deprivation of any
rights” guaranteed by the Constitution and laws “shall be liable to the
party injured.”
Initially, the U.S. Supreme Court recognized the straightforward
application of this law. In the case Monroe v. Pape, for instance, a Black
family, the Monroes, sued Chicago police officers who, in the early
morning, broke into their home without a warrant, rounded them up,
made them stand naked in the living room, and ransacked every room,
emptying drawers and ripping mattress covers. The officers then
arrested James Monroe, the father, and detained and interrogated him
for hours. In an opinion written by Justice William Douglas, the
Supreme Court recognized that the Civil Rights Act allowed the
Monroes to sue the officers for violating their constitutional rights. The
very purpose of the Civil Rights Act, the Court explained, was “to give a
remedy to parties deprived of constitutional rights, privileges, and
immunities by an official’s abuse of his position.”
Over recent years, however, the Supreme Court has largely gutted this
promise. It has done this by creating out of whole cloth the legal defense
of qualified immunity, and then vastly expanding it.
The Appeal; “Qualified Immunity Explained”. Amir H. Ali and Emily Clark.

11

As the authors further explain, an infinitesimal number of any complainants
can ever, even in the most egregious cases (As detailed by the authors) get over this
judicial creation which contravenes both the clear language of all civil rights acts
back to the Ku Klux Klan Act of 1871 and the clear intent of both statutes, and the
U. S. Constitution, specifically the XIII, XIV and XV Amendments, Prior to Pierson
government officials had a defense of good faith. Apparently, that was not good
enough because they also needed protection for bad faith as claimed in the case
herein.
The actions of Respondents that lead to the conclusion that even under this
fictitious doctrine the Respondents’ actions as pled demonstrate that they are not
deserving of qualified immunity and, Petitioner through Counsel also asserts that
qualified immunity itself is unconstitutional.
The unprofessional, and facially malicious actions of the employees of the
Respondent State of Ohio, as pled, even when notice was again and again given by
Barnes, by rejections in court and by Petitioner’s complaints, as pled, remained
unaddressed. The officials and supervisors of Respondent State of Ohio were on notice
and did nothing, as their continuing actions and the continuing actions of their
employees demonstrate. There was no training, remedial or otherwise and no
adequate supervision. Revenge and retaliation, explicitly expressed, were the order
of the day for thirty years. Accordingly, “the [Defendants’] custom was the cause of
the deprivation of... constitutional rights”. Bickerstaff, supra.

12

CONCLUSION
For the foregoing reasons, this Court should accept the Petition in this matter.
Respectfully submitted,
/sj Dean A. Koch
DEAN A. KOCH
204 Norwood Avenue
Sandusky ,-Ohio-44870
419-366-2042
Dkoch49@aol.com
Pro Se Petitioner

13

